Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




  COMPARISON OF AVERAGE
 SALES PRICES AND AVERAGE
  MANUFACTURER PRICES:
   AN OVERVIEW OF 2010




                   Daniel R. Levinson
                    Inspector General

                    November 2011
                    OEI-03-11-00410
       E X E C U T I V E                                             S U M M A R Y


                               OBJECTIVES
                               1. To identify drugs with average sales prices (ASP) that exceeded
                                  average manufacturer prices (AMP) by at least 5 percent in any
                                  quarter of 2010.
                               2. To examine the impact of missing and unavailable AMP data on the
                                  Office of Inspector General’s (OIG) pricing comparisons in 2010.


                               BACKGROUND
                               By law, OIG must compare ASPs with AMPs. As generally defined in
                               statute, an ASP is a manufacturer’s sales of a drug to all purchasers in
                               the United States in a calendar quarter divided by the total number of
                               units of the drug sold by the manufacturer in that same quarter, net of
                               any price concessions. Generally, manufacturers must provide the
                               Centers for Medicare & Medicaid Services (CMS) with the ASP for each
                               of their national drug codes (NDC) on a quarterly basis. For most
                               Part B prescription drug Healthcare Common Procedure Coding System
                               (HCPCS) codes, the Medicare reimbursement is equal to 106 percent of
                               the volume-weighted ASPs for the associated NDCs.
                               Manufacturers that participate in the Medicaid drug rebate program
                               must also provide CMS with the AMP for each of their NDCs on a
                               quarterly basis, with certain exceptions. During the first three quarters
                               of 2010, the AMP was generally defined by statute to be the average
                               price paid to the manufacturer for the drug in the United States by
                               wholesalers for drugs distributed to the retail pharmacy class of trade.
                               However, the definition of AMP changed as of the fourth quarter of
                               2010, becoming the average price paid to the manufacturer for the drug
                               in the United States by (1) wholesalers for drugs distributed to retail
                               community pharmacies and (2) retail community pharmacies that
                               purchase drugs directly from the manufacturer.
                               If OIG finds that the ASP for a HCPCS code exceeds the AMP by a
                               certain percentage (5 percent through 2011), the Secretary of Health
                               and Human Services (the Secretary) may disregard the ASP for the
                               drug when setting reimbursement and shall substitute the payment
                               amount with the lesser of either the widely available market price or
                               103 percent of the AMP. In July 2011, CMS published a proposed rule
                               that, among other things, specified the circumstances under which
                               AMP-based price substitutions would occur. Generally, CMS proposed
                               to lower reimbursement amounts only for HCPCS codes with complete

O E I - 0 3 - 11 - 0 0 4 1 0   C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2010   i
E    X      E C            U T     I     V      E            S     U M         M   A   R Y


                                       AMP data that exceed the 5-percent threshold in two consecutive or
                                       three of four quarters. CMS plans to implement its price substitution
                                       policy beginning in 2012.
                                       To date, OIG has issued 23 reports comparing ASPs with AMPs. This
                                       current overview examines data across all four quarters of 2010. To
                                       identify HCPCS codes that exceeded the 5-percent threshold at least
                                       once during the year based on either complete or partial AMP data, we
                                       merged the results of our pricing comparisons for each quarter of 2010.
                                       To determine whether missing and unavailable AMPs unduly
                                       influenced the results of our pricing comparisons, we reanalyzed pricing
                                       data for HCPCS codes with partial AMP data after accounting for the
                                       missing values. We also identified the number of HCPCS codes that
                                       were removed from OIG’s pricing comparisons because they did not
                                       have AMP data in 2010.


                                       FINDINGS
                                       In 2010, 32 HCPCS codes with complete AMP data exceeded the
                                       5-percent threshold in one or more quarters. If reimbursement
                                       amounts for all 32 codes with complete AMP data had been lowered to
                                       103 percent of the AMPs during the applicable quarters, we estimate that
                                       Medicare expenditures would have been reduced by $13.2 million
                                       between the third quarter of 2010 and the second quarter of 2011.
                                       Reimbursement amounts for 10 of the 32 HCPCS codes would have been
                                       reduced under CMS’s proposed price substitution policy, thereby saving
                                       Medicare and its beneficiaries an estimated $2.3 million.
                                       In 2010, 41 HCPCS codes with partial AMP data exceeded the
                                       5-percent threshold in one or more quarters. When we accounted for
                                       missing and unavailable AMPs, 13 of the 41 HCPCS codes continued to
                                       exceed the threshold in at least one quarter of 2010, suggesting that the
                                       pricing comparisons for these codes were accurately capturing underlying
                                       market trends even though AMP data were not available for the full set
                                       of NDCs. Because missing and unavailable AMP data had seemingly
                                       little influence on the pricing comparison results for these 13 HCPCS
                                       codes, price substitutions may be legitimately warranted in these cases.
                                       Because of NDCs without AMP data, the number of pricing
                                       comparisons performed in 2010 was reduced by at least
                                       9 percent in each quarter. In total, 90 HCPCS codes were excluded
                                       from OIG’s pricing comparisons in one or more quarters of 2010 because
                                       none of the associated NDCs had AMP data. For half of the 90 codes, we

    O E I - 0 3 - 11 - 0 0 4 1 0       C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2010   ii
E    X      E C            U T     I     V      E            S     U M         M   A   R Y


                                       were unable to perform any pricing comparisons in 2010 because of NDCs
                                       without AMP data. Three-fourths of these HCPCS codes (34 of 45) would
                                       never have been subject to our pricing comparisons because they were
                                       associated exclusively with NDCs for which manufacturers were not
                                       required to report AMP data.


                                       RECOMMENDATIONS
                                       The Social Security Act provides the Secretary authority to lower
                                       reimbursement amounts for drugs with ASPs that exceed AMPs by at
                                       least 5 percent. Although CMS has yet to adjust Part B drug
                                       reimbursement as a result of OIG’s pricing comparisons, it recently
                                       published a proposed rule specifying the circumstances under which
                                       future price substitutions would occur.
                                       CMS’s proposed policy is a step toward meeting statutory price
                                       substitution requirements and addressing the gap between ASPs and
                                       AMPs for certain Part B drugs. However, the policy may exclude other
                                       drugs for which a price adjustment is legitimately warranted and may
                                       also inadvertently provide drug manufacturers with a disincentive to
                                       submit timely AMPs. To ensure the appropriateness of Medicare Part B
                                       payments for a greater number of drugs, we recommend that CMS:
                                       Consider expanding the price substitution policy to include certain
                                       HCPCS codes with partial AMP data.
                                       Consider seeking a legislative change to directly require all
                                       manufacturers of Part B-covered drugs to submit both ASPs and
                                       AMPs.


                                       AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                                       RESPONSE
                                       CMS did not state whether it concurred with our recommendation to
                                       consider substituting prices for certain HCPCS codes with partial AMP
                                       data. Rather, CMS reiterated its concerns about price substitutions
                                       based on partial AMP data and noted that it will finalize a price
                                       substitution policy after considering all comments to the draft rule.
                                       CMS also stated that it could not concur with our recommendation
                                       regarding the expansion of price reporting requirements but suggested
                                       that OIG provide an analysis identifying the number of manufacturers
                                       and drugs that would be affected by such a proposal. Furthermore,
                                       CMS reiterated its uncertainty about the payoff associated with


    O E I - 0 3 - 11 - 0 0 4 1 0       C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2010   iii
E    X      E C            U T     I     V      E            S     U M         M   A   R Y


                                       quarterly pricing comparisons, suggesting that OIG limit its efforts to a
                                       single annual report.
                                       In its July 2011 proposed rule, CMS expressed its intention to apply a
                                       price substitution policy on a quarterly basis. Therefore, OIG’s
                                       quarterly pricing comparisons will likely be necessary for CMS to make
                                       responsive, short-term payment adjustments that would not be possible
                                       with only annual OIG pricing comparisons. To ensure that CMS can
                                       make appropriate changes to reimbursement once the price substitution
                                       policy has been implemented, OIG will continue to issue quarterly
                                       reports comparing ASPs and AMPs.




    O E I - 0 3 - 11 - 0 0 4 1 0       C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2010   iv
   T A B L E           O F           C O N T E N T S



         EXECUTIVE SUMMARY .....................................i


         INTRODUCTION ............................................ 1


         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
                    In 2010, 32 HCPCS codes with complete AMP data
                    exceeded the 5-percent threshold in one or more quarters . . . . . . 11

                    In 2010, 41 HCPCS codes with partial AMP data
                    exceeded the 5-percent threshold in one or more quarters . . . . . . 12

                    Because of NDCs without AMP data, the number of pricing
                    comparisons performed in 2010 was reduced by at least
                    9 percent in each quarter. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
                    Agency Comments and Office of Inspector General Response. . . . 17


         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
                    A: The Equation Used by the Centers for Medicare & Medicaid
                       Services To Calculate Volume-Weighted Average Sales
                       Prices on or After April 1, 2008 . . . . . . . . . . . . . . . . . . . . . . . . . 18

                    B: Previous Office of Inspector General Reports Comparing
                       Average Sales Prices and Average Manufacturer Prices . . . . . 19

                    C: Detailed Methodology for Calculating Volume-Weighted
                       Average Manufacturer Prices for 2010 . . . . . . . . . . . . . . . . . . . 22

                    D: Detailed Methodology for Estimating Savings for Drug
                       Codes That Exceeded the 5-Percent Threshold in 2010. . . . . . 24

                    E: Thirty-Two Drug Codes With Complete Average
                       Manufacturer Price Data That Exceeded the 5-Percent
                       Threshold in 2010 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

                    F: Forty-One Drug Codes With Partial Average
                       Manufacturer Price Data That Exceeded the 5-Percent
                       Threshold in 2010 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26

                    G: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28


         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30
       I N T R O D U C T I O N


                               OBJECTIVES
                               1. To identify drugs with average sales prices (ASP) that exceeded
                                  average manufacturer prices (AMP) by at least 5 percent in any
                                  quarter of 2010.
                               2. To examine the impact of missing and unavailable AMP data on the
                                  Office of Inspector General’s (OIG) pricing comparisons in 2010.


                               BACKGROUND
                               The Social Security Act (the Act) mandates that OIG compare ASPs
                               with AMPs. 1 If OIG finds that the ASP for a drug exceeds the AMP by a
                               certain percentage (5 percent through 2011), the Act states that the
                               Secretary of Health and Human Services (the Secretary) may disregard
                               the ASP for the drug when setting reimbursement amounts. 2, 3 The Act
                               further states:
                                          … the Inspector General shall inform the Secretary (at
                                          such times as the Secretary may specify to carry out this
                                          subparagraph) and the Secretary shall, effective as of the
                                          next quarter, substitute for the amount of payment … the
                                          lesser of (i) the widely available market price … (if any); or
                                          (ii) 103 percent of the average manufacturer price…. 4
                               Medicare Part B Coverage of Prescription Drugs
                               Medicare Part B covers only a limited number of outpatient prescription
                               drugs. Covered drugs include injectable drugs administered by a
                               physician; certain self-administered drugs, such as oral anticancer
                               drugs and immunosuppressive drugs; drugs used in conjunction with
                               durable medical equipment; and some vaccines.
                               Medicare Part B Payments for Prescription Drugs
                               The Centers for Medicare & Medicaid Services (CMS) contracts with
                               private companies, known as Medicare Administrative Contractors
                               (MAC), to process and pay Medicare Part B claims, including those for
                               prescription drugs. To obtain reimbursement for covered outpatient
                               prescription drugs, physicians and suppliers submit claims to their

                               1 Section 1847A(d)(2)(B) of the Act.
                               2 Section 1847A(d)(3)(A) of the Act.
                               3 Section 1847A(d)(3)(B)(ii) of the Act provides the Secretary with authority to adjust the

                               applicable threshold percentage in 2006 and subsequent years; however, the threshold
                               percentage has been maintained at 5 percent.
                               4 Section 1847A(d)(3)(C) of the Act.




O E I - 0 3 - 11 - 0 0 4 1 0   C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2010                          1
I   N T           R O              D   U      C T           I        O   N


                                           MACs using Healthcare Common Procedure Coding System (HCPCS)
                                           codes. CMS established the HCPCS to provide a standardized coding
                                           system for describing the specific items and services provided in the
                                           delivery of health care. In the case of prescription drugs, each HCPCS
                                           code defines the drug name and the amount of drug represented by the
                                           HCPCS code but does not specify the manufacturer or the package size.
                                           Medicare and its beneficiaries spent almost $12 billion for Part B drugs
                                           in 2010. 5 Although Medicare paid for more than 600 outpatient
                                           prescription drug HCPCS codes that year, most of the spending for
                                           Part B drugs was concentrated on a relatively small subset of those
                                           codes. In 2010, 61 HCPCS codes accounted for 90 percent of the
                                           expenditures for Part B drugs, with only 12 of these codes representing
                                           the majority of total Part B drug expenditures.
                                           Reimbursement Methodology for Part B Drugs
                                           Medicare Part B pays for most covered drugs using a reimbursement
                                           methodology based on ASPs. 6 As defined by law, an ASP is a
                                           manufacturer’s sales of a drug to all purchasers in the United States in
                                           a calendar quarter divided by the total number of units of the drug sold
                                           by the manufacturer in that quarter.7 The ASP is net of any price
                                           concessions, such as volume discounts, prompt-pay discounts, cash
                                           discounts, free goods contingent on purchase requirements,
                                           chargebacks, and rebates other than those obtained through the
                                           Medicaid drug rebate program. 8 Sales that are nominal in amount are
                                           exempted from the ASP calculation, as are sales excluded from the
                                           determination of “best price” in the Medicaid drug rebate program.9, 10
                                           Manufacturers that participate in the Medicaid drug rebate program
                                           must provide CMS with the ASP and volume of sales for each of their


                                           5 Medicare expenditures for Part B drugs in 2010 were calculated using CMS’s Part B
                                           Analytics and Reports (PBAR). The PBAR data for 2010 were 98-percent complete when
                                           the data were downloaded in April 2011.
                                           6 Several Part B drugs, including certain vaccines and blood products, are not paid for

                                           under the ASP methodology.
                                           7 Section 1847A(c) of the Act, as added by the Medicare Prescription Drug, Improvement,

                                           and Modernization Act of 2003, P.L. 108-173.
                                           8 Section 1847A(c)(3) of the Act.
                                           9 Section 1847A(c)(2) of the Act.
                                           10 Pursuant to § 1927(c)(1)(C)(i) of the Act, “best price” is the lowest price available from the
                                           manufacturer during the rebate period to any wholesaler, retailer, provider, health
                                           maintenance organization, nonprofit entity, or governmental entity within the United
                                           States, with certain exceptions.



    O E I - 0 3 - 11 - 0 0 4 1 0           C O M PA R I S O N   OF   ASPS    AND   AMPS: AN OVERVIEW   OF   2010                          2
I   N T           R O              D   U      C T           I        O   N


                                           national drug codes (NDC) on a quarterly basis, with submissions due
                                           30 days after the close of each quarter. 11 An NDC is an 11-digit
                                           identifier that represents a specific manufacturer, product, and package
                                           size.
                                           Because Medicare Part B reimbursement for outpatient drugs is based
                                           on HCPCS codes rather than NDCs and more than one NDC may meet
                                           the definition of a particular HCPCS code, CMS has developed a file
                                           that “crosswalks” manufacturers’ NDCs to HCPCS codes. CMS uses
                                           information in this crosswalk file to calculate volume-weighted ASPs for
                                           covered HCPCS codes.
                                           Calculation of Volume-Weighted Average Sales Prices
                                           To calculate a volume-weighted ASP, CMS uses an equation that
                                           involves the following variables: the ASP for the 11-digit NDC as
                                           reported by the manufacturer, the volume of sales for the NDC as
                                           reported by the manufacturer, and the number of billing units in the
                                           NDC as determined by CMS. 12 The amount of the drug contained in an
                                           NDC may differ from the amount of the drug specified by the HCPCS
                                           code that providers use to bill Medicare. Therefore, the number of
                                           billing units in an NDC describes the number of HCPCS code units that
                                           are in that NDC. For instance, an NDC may contain 10 milliliters of
                                           Drug A, but the corresponding HCPCS code may be defined as only
                                           5 milliliters of Drug A. In this case, there are two billing units in the
                                           NDC. CMS calculates the number of billing units in each NDC when
                                           developing its crosswalk files.
                                           Under the ASP pricing methodology, the Medicare reimbursement for
                                           most Part B drugs is equal to 106 percent of the volume-weighted ASP
                                           for the HCPCS code. 13 However, a two-quarter lag exists between the
                                           sales period for which ASPs are reported and the effective date of the
                                           reimbursement amounts. For example, ASPs from the first quarter of
                                           2010 were used to establish reimbursement amounts for the third
                                           quarter of 2010, and ASPs from the fourth quarter of 2010 were used to
                                           establish reimbursement amounts for the second quarter of 2011.




                                           11 Section 1927(b)(3) of the Act.
                                           12 The equation that CMS currently uses to calculate volume-weighted ASPs is described in

                                           section 1847A(b)(6) of the Act. It is also provided in Appendix A.
                                           13 Medicare beneficiaries are responsible for 20 percent of this amount in the form of

                                           coinsurance.



    O E I - 0 3 - 11 - 0 0 4 1 0           C O M PA R I S O N   OF   ASPS    AND   AMPS: AN OVERVIEW   OF   2010                    3
I   N T           R O              D   U      C T           I        O   N


                                           The Medicaid Drug Rebate Program and AMPs
                                           For Federal payment to be available for covered outpatient drugs
                                           provided under Medicaid, the Act mandates that drug manufacturers
                                           enter into rebate agreements with the Secretary and pay quarterly
                                           rebates to State Medicaid agencies. 14 Under these rebate agreements
                                           and pursuant to the Act, manufacturers must provide CMS with the
                                           AMPs for each of their NDCs.15 As further explained in the regulation,
                                           manufacturers are required to submit AMPs within 30 days after the
                                           end of each quarter. 16
                                           The AMP is generally calculated as a weighted average of prices for all
                                           of a manufacturer’s package sizes of a drug and is reported for the
                                           lowest identifiable quantity of the drug (e.g., 1 milliliter, one tablet, one
                                           capsule). 17 During the first three quarters of 2010, the AMP was
                                           generally defined by statute to be the average price paid to the
                                           manufacturer for the drug in the United States by wholesalers for drugs
                                           distributed to the retail pharmacy class of trade. 18 However, effective
                                           as of the fourth quarter of 2010, the Patient Protection and Affordable
                                           Care Act (Affordable Care Act) revised the definition of AMP to be the
                                           average price paid to the manufacturer for the drug in the United
                                           States by (1) wholesalers for drugs distributed to retail community
                                           pharmacies and (2) retail community pharmacies that purchase drugs
                                           directly from the manufacturer. 19, 20 Because the AMPs calculated
                                           under this new definition are expected to be based on higher-priced




                                           14 Sections 1927(a)(1) and (b)(1) of the Act.
                                           15 Section 1927(b)(3) of the Act.
                                           16 42 CFR § 447.510.
                                           17 During the first three quarters of 2010, 42 CFR § 447.504(i)(2) specified that a quarterly

                                           AMP should be calculated as a weighted average of monthly AMPs in the quarter.
                                           18 42 CFR § 447.504 (2010).
                                           19 Section 1927(k)(1) of the Act, as amended by section 2503 of the Affordable Care Act,
                                           P.L. 111-148.
                                           20 Pursuant to section 1927(k)(10) of the Act, “retail community pharmacy” means an
                                           independent, chain, supermarket, or mass merchandiser pharmacy that is licensed as a
                                           pharmacy by the State and that dispenses medications to the general public at retail prices.
                                           Such term does not include pharmacies that dispense prescription medications to patients
                                           primarily through the mail; nursing home, long-term care, or hospital pharmacies; clinics;
                                           charitable or not-for-profit pharmacies; government pharmacies; or pharmacy benefit
                                           managers.



    O E I - 0 3 - 11 - 0 0 4 1 0           C O M PA R I S O N   OF   ASPS    AND   AMPS: AN OVERVIEW   OF   2010                           4
I   N T           R O              D   U      C T           I        O   N


                                           sales, the new AMPs are likely to be higher than the AMPs calculated
                                           before October 2010. 21, 22
                                           Penalties for Failure To Report Timely Drug Pricing Data
                                           Pursuant to the Act, manufacturers that fail to provide ASP and AMP
                                           by the statutory deadline may be subject to civil money penalties
                                           and/or termination from the drug rebate program.23, 24 Accordingly,
                                           CMS has terminated rebate agreements with a number of
                                           manufacturers for failure to report AMPs and, for the purposes of
                                           evaluating potential civil money penalties, has referred to OIG
                                           manufacturers that failed to submit timely ASPs and AMPs. In
                                           September 2010, OIG announced an enforcement initiative under
                                           which it would begin imposing civil money penalties on
                                           manufacturers that failed to report timely ASPs and/or AMPs.25
                                           OIG’s Monitoring of ASPs and AMPs
                                           In accordance with its statutory mandate, OIG has issued 20 quarterly
                                           pricing comparisons since the ASP reimbursement methodology for Part B
                                           drugs was implemented in January 2005. In addition, OIG completed
                                           three annual overviews of ASPs and AMPs, which examined data across
                                           all four quarters of 2007, 2008, and 2009, respectively. A list of all
                                           23 reports is provided in Appendix B.
                                           OIG has consistently recommended that CMS develop a price
                                           substitution policy and subsequently lower reimbursement for drugs
                                           that exceed the 5-percent threshold. Although CMS has yet to make
                                           any changes to Part B drug reimbursement as a result of these studies,
                                           the agency published a proposed rule in July 2011 that, among other




                                           21 As stated by the Department of Health and Human Services in its comments on
                                           page 12 of a 2010 Government Accountability Office report entitled Medicaid Outpatient
                                           Prescription Drugs: Estimated Changes to Federal Upper Limits Using the Formula under
                                           the Patient Protection and Affordable Care Act (GAO-11-141R).
                                           22This anticipated increase in AMPs may lessen the likelihood that a drug’s ASP will

                                           exceed the 5-percent threshold, effectively making price substitution criteria more
                                           stringent.
                                           23 Sections 1927(b)(3)(C)(i) and (4)(B)(i) of the Act.
                                           24 The Secretary delegated to OIG the responsibility to impose civil money penalties for

                                           violations of § 1927(b)(3)(C) of the Act in 59 Fed. Reg. 52967 (Oct. 20, 1994).
                                           25 OIG, Special Advisory Bulletin: Average Manufacturer Price and Average Sales Price
                                           Reporting Requirements, September 2010. Available online at http://www.oig.hhs.gov.



    O E I - 0 3 - 11 - 0 0 4 1 0           C O M PA R I S O N   OF   ASPS    AND   AMPS: AN OVERVIEW   OF   2010                      5
I   N T           R O              D   U      C T           I        O   N


                                           things, specifies the circumstances under which AMP-based price
                                           substitutions would occur. 26, 27
                                           CMS’s Proposed Price Substitution Policy
                                           Under CMS’s July 2011 proposed price substitution policy, 103 percent
                                           of the AMP would be substituted for the ASP-based reimbursement
                                           amount when OIG identifies a HCPCS code that meets the 5-percent
                                           threshold in two consecutive quarters or three of four quarters. Because
                                           CMS believes that substituted prices based on partial AMP data may
                                           not adequately reflect market trends, the agency would lower
                                           reimbursement amounts only when ASP and AMP comparisons are
                                           based on the same set of NDCs (i.e., based on complete AMP data).
                                           HCPCS codes that meet the 5-percent threshold based on partial AMP
                                           data would not be eligible for price substitution.
                                           Price substitutions would take effect in the quarter after OIG shares the
                                           results of its most recent pricing comparison and would remain in effect
                                           for one quarter. To prevent CMS’s proposed policy from inadvertently
                                           raising the Medicare reimbursement amount, a price substitution would
                                           not occur when the substituted amount is greater than the ASP-based
                                           payment amount calculated for the quarter in which the price
                                           substitution would take effect. CMS plans to apply its price
                                           substitution policy on a quarterly basis beginning in 2012. 28


                                           METHODOLOGY
                                           We obtained files from CMS containing NDC-level ASP data from the
                                           first through fourth quarters of 2010, which were used to establish
                                           Part B drug reimbursement amounts for the third quarter of 2010
                                           through the second quarter of 2011, respectively. These files also
                                           include information that crosswalks NDCs to their corresponding
                                           HCPCS codes. We also obtained AMP data from CMS for the first
                                           through fourth quarters of 2010.29


                                           26 76 Fed. Reg. 42772, 42947 (July 19, 2011).
                                           27 CMS previously proposed a price substitution policy to be used for calendar year 2011
                                           but opted not to finalize that price substitution policy based, in part, on impending changes
                                           to the definition of AMP (75 Fed. Reg. 73170,73471 (Nov. 29, 2010)).
                                           28 76 Fed. Reg. 42772, 42947 (July 19, 2011).
                                           29 ASP and crosswalk data from the first through fourth quarters of 2010 were current as of
                                           June 2010, September 2010, January 2011, and March 2011, respectively. AMP data from
                                           the first through fourth quarters of 2010 were current as of May 2010, August 2010,
                                           November 2010, and February 2011, respectively.



    O E I - 0 3 - 11 - 0 0 4 1 0           C O M PA R I S O N   OF   ASPS    AND   AMPS: AN OVERVIEW   OF   2010                       6
I   N T           R O              D   U      C T           I        O   N


                                           Calculating Volume-Weighted ASPs and Volume-Weighted AMPs for 2010
                                           As mentioned previously, Medicare does not base reimbursement for
                                           covered drugs on NDCs; instead, it uses HCPCS codes. Therefore, CMS
                                           uses quarterly ASP information submitted by manufacturers for each
                                           NDC to calculate a volume-weighted ASP for each covered HCPCS code.
                                           When calculating these volume-weighted ASPs, CMS includes only
                                           NDCs with ASP submissions that are deemed valid.
                                           As part of our analysis for each of the 2010 quarterly reports, we
                                           calculated a volume-weighted AMP for each HCPCS code, consistent
                                           with CMS’s methodology for calculating volume-weighted ASPs. To
                                           ensure that the broadest range of drug codes is subject to OIG’s
                                           pricing comparisons, we examined HCPCS codes with complete AMP
                                           data (i.e., HCPCS codes with AMP data for every NDC that CMS used
                                           in its calculation of volume-weighted ASPs), as well as HCPCS codes
                                           with partial AMP data (i.e., HCPCS codes with AMP data for only
                                           some of the NDCs that CMS used in its calculation of
                                           volume-weighted ASPs). When calculating the volume-weighted AMP
                                           for a HCPCS code with partial AMP data, we excluded any NDCs
                                           without AMPs; however, we did not exclude those NDCs from the
                                           corresponding volume-weighted ASP. This means that the
                                           volume-weighted AMP for a HCPCS code with partial AMP data is
                                           based on fewer NDCs than the volume-weighted ASP for that same
                                           code. Appendix C provides a more detailed description of the methods
                                           used to calculate volume-weighted AMPs for HCPCS codes using
                                           complete or partial AMP data.
                                           Comparing Volume-Weighted ASPs to Volume-Weighted AMPs for 2010
                                           In each of our 2010 quarterly reports, we compared the
                                           volume-weighted ASPs and AMPs and identified HCPCS codes with
                                           ASPs that exceeded the AMPs by at least 5 percent using either
                                           complete or partial AMP data. For those HCPCS codes that exceeded
                                           the 5-percent threshold, we conducted a review of the associated NDCs
                                           to verify the accuracy of the billing unit information for the quarter(s) in
                                           which the threshold was exceeded. If HCPCS codes had potentially
                                           inaccurate billing units, we excluded them from our findings.
                                           As part of our 2010 annual overview, we merged the results of the four
                                           quarterly pricing comparisons to identify HCPCS codes with ASPs that
                                           exceeded AMPs by at least 5 percent in one or more quarters of 2010.
                                           For each of the HCPCS codes we identified, we conducted additional



    O E I - 0 3 - 11 - 0 0 4 1 0           C O M PA R I S O N   OF   ASPS    AND   AMPS: AN OVERVIEW   OF   2010   7
I   N T           R O              D   U      C T           I        O   N


                                           analyses that differed depending on whether the HCPCS code had
                                           complete or partial AMP data.
                                           Additional analysis of HCPCS codes with complete AMP data. For each of
                                           the HCPCS codes with complete AMP data that exceeded the 5-percent
                                           threshold in at least one quarter of 2010, we estimated the monetary
                                           impact of lowering reimbursement to 103 percent of the AMP. 30 In our
                                           separate quarterly pricing comparisons for 2010, savings estimates for
                                           codes that exceeded the threshold in the first through third quarters
                                           were based on CMS’s PBAR data from 2009, whereas savings estimates
                                           for codes in the fourth quarter were based on PBAR data from 2010. To
                                           ensure that the savings estimates were consistent and reflective of the
                                           most current Medicare expenditures, we recalculated the savings
                                           estimates for the codes that exceeded the threshold in one or more
                                           quarters of 2010 using updated PBAR data for 2010. As a result, the
                                           estimated savings presented in this annual overview may differ from
                                           the savings presented in each of the separate quarterly reports
                                           previously published by OIG. Appendix D provides a more detailed
                                           description of the methods we used to estimate savings for HCPCS
                                           codes that exceeded the 5-percent threshold using complete AMP data.
                                           To determine which HCPCS codes would have been subject to price
                                           reduction if CMS’s proposed price substitution policy had been in effect
                                           during 2010, we identified codes with complete AMP data that exceeded
                                           the 5-percent threshold in two consecutive quarters or three of four
                                           quarters in 2010. We then totaled the estimated savings for that subset
                                           of codes.
                                           Additional analysis of HCPCS codes with partial AMP data. In each of our
                                           2010 quarterly reports, we identified HCPCS codes with partial AMP
                                           data that exceeded the 5-percent threshold only because AMP data were




                                           30 Section 1847A(d)(3)(C) of the Act directs the Secretary to replace payment amounts for
                                           drugs that exceed the 5-percent threshold with the lesser of the widely available market
                                           price (WAMP) for the drug (if any) or 103 percent of the AMP. For the purposes of this
                                           study, we used 103 percent of the AMP to estimate the impact of lowering reimbursement
                                           amounts. If WAMPs had been available for these drugs and had been lower than
                                           103 percent of the AMP, the savings estimate presented in this report would have been
                                           greater.



    O E I - 0 3 - 11 - 0 0 4 1 0           C O M PA R I S O N   OF   ASPS    AND   AMPS: AN OVERVIEW   OF   2010                       8
I   N T           R O              D   U      C T           I        O   N


                                           missing or unavailable.31 As mentioned previously, the
                                           volume-weighted AMP for a HCPCS code with partial AMP data is
                                           based on fewer NDCs than the volume-weighted ASP for that same
                                           code. Therefore, there may be a disparity between the volume-weighted
                                           ASP and AMP that would not exist if AMP data were available for the
                                           full set of NDCs. In other words, the volume-weighted ASP for the
                                           HCPCS code could exceed the volume-weighted AMP by at least
                                           5 percent only because AMPs for certain NDCs were not represented.
                                           To determine whether missing or unavailable AMPs unduly influenced
                                           the results of our pricing comparisons, we reanalyzed pricing data after
                                           accounting for the missing values. Specifically, we replaced each
                                           missing value with its corresponding ASP and recalculated the
                                           volume-weighted AMPs using those imputed prices. 32 We then
                                           compared those new volume-weighted AMPs to the volume-weighted
                                           ASPs originally calculated by CMS.
                                           If a HCPCS code no longer exceeded the 5-percent threshold in a given
                                           quarter, we concluded that the missing and unavailable AMPs were
                                           likely responsible for the HCPCS code’s having initially exceeded the
                                           threshold in that quarter, as opposed to an actual disparity between
                                           ASPs and AMPs in the marketplace. If a HCPCS code continued to
                                           exceed the 5-percent threshold in a given quarter, we concluded that
                                           missing and unavailable AMPs had little impact on the results of our
                                           pricing comparison for that quarter. For these cases, the HCPCS codes
                                           likely exceeded the threshold as a result of actual pricing differences
                                           between ASPs and AMPs.
                                           As part of our 2010 annual overview, we merged the results of the four
                                           quarterly pricing comparisons to identify HCPCS codes with partial
                                           AMP data that exceeded the 5-percent threshold in one or more
                                           quarters of 2010 because of an actual pricing disparity. Because price
                                           substitutions for these HCPCS codes may be warranted, we used 2010

                                           31 For the purposes of this study, an AMP was considered “missing” if the manufacturer

                                           had a Medicaid rebate agreement in 2010 but did not submit a price for the quarter. An
                                           AMP was considered “unavailable” for an NDC if the manufacturer did not have a Medicaid
                                           rebate agreement and was therefore not required to submit AMP data to CMS. To
                                           determine whether a manufacturer had a rebate agreement in 2010, we consulted the list of
                                           participating drug companies posted on CMS’s Web site.
                                           32 Although an NDC’s ASP is not usually the same as its AMP, it is generally within about
                                           5 percent of the AMP on average. Therefore, we believe that ASP acts as a reasonable
                                           proxy for AMP, ensuring that the NDC is represented in both the volume-weighted ASP and
                                           the volume-weighted AMP for the HCPCS code.



    O E I - 0 3 - 11 - 0 0 4 1 0           C O M PA R I S O N   OF   ASPS    AND   AMPS: AN OVERVIEW   OF   2010                       9
I   N T           R O              D   U      C T           I        O   N


                                           PBAR data to estimate the monetary impact of lowering reimbursement
                                           for these codes to 103 percent of the new volume-weighted AMPs. We
                                           also determined which of these codes exceeded the threshold in two
                                           consecutive or three of four quarters in 2010 and totaled the estimated
                                           savings for that subset of codes.
                                           Analyzing HCPCS Codes With No AMP Data in 2010
                                           In each of our pricing comparisons for 2010, we excluded HCPCS codes
                                           that had missing or unavailable AMP data for all of the NDCs CMS
                                           used to calculate Medicare reimbursement. To identify the total
                                           number of HCPCS codes that were excluded from OIG pricing
                                           comparisons in 2010, we merged the results from each of the four
                                           quarterly reports. We then identified the number of HCPCS codes that
                                           were never included in OIG’s pricing comparisons in 2010 because of
                                           missing or unavailable AMP data.
                                           Limitations
                                           We did not verify the accuracy of manufacturer-reported ASP and AMP
                                           data, nor did we verify the underlying methodology used by
                                           manufacturers to calculate ASPs and AMPs. We also did not verify the
                                           accuracy of CMS’s crosswalk files or examine NDCs that CMS opted to
                                           exclude from its calculation of Part B drug reimbursement amounts.
                                           Manufacturers are required to submit their quarterly ASP and AMP
                                           data to CMS within 30 days after the close of the quarter. Our analyses
                                           were performed on ASP and AMP data compiled by CMS soon after that
                                           deadline. We did not determine whether manufacturers provided any
                                           revised and/or missing data to CMS at a later date.
                                           To examine the effect of CMS’s proposed price substitution policy, we
                                           identified codes that exceeded the threshold in two consecutive quarters
                                           or three of four quarters in 2010. Additional codes could have been
                                           subject to CMS’s proposed policy if they exceeded the threshold in 2010
                                           as well as in the second, third, or fourth quarters of 2009.
                                           Standards
                                           This study was conducted in accordance with the Quality Standards for
                                           Inspection and Evaluation issued by the Council of the Inspectors
                                           General on Integrity and Efficiency.




    O E I - 0 3 - 11 - 0 0 4 1 0           C O M PA R I S O N   OF   ASPS    AND   AMPS: AN OVERVIEW   OF   2010   10
F   I     N
            F DI N
                 I N G S
                   D I N G S

          In 2010, 32 HCPCS codes with complete                            Consistent with sections
        AMP data exceeded the 5-percent threshold                         1847A(d)(2)(B) and 1847A(d)(3) of
                                                                          the Act, OIG compared ASPs
                          in one or more quarters
                                                                          with AMPs to identify instances
                                   in which the ASP for a particular drug exceeded the AMP by a threshold
                                   of 5 percent. Of the 501 HCPCS codes examined during 2010,
                                   32 exceeded this 5-percent threshold in at least one quarter based on
                                   complete AMP data only. Appendix E presents a list of the 32 HCPCS
                                   codes, including the quarter(s) during which the codes exceeded the
                                   5-percent threshold.
                                   Pursuant to section 1847A(d)(3) of the Act, the Secretary may disregard
                                   the ASP for a drug that exceeds the 5-percent threshold and shall
                                   substitute the payment amount with the lesser of either the WAMP or
                                   103 percent of the AMP. If reimbursement amounts for all 32 codes
                                   with complete AMP data had been lowered to 103 percent of the AMPs
                                   during the applicable quarters, we estimate that Medicare expenditures
                                   would have been reduced by $13.2 million between the third quarter of
                                   2010 and the second quarter of 2011.33
                                   Under CMS’s proposed price substitution policy, reimbursement amounts
                                   for almost one-third of the 32 HCPCS codes would have been reduced,
                                   resulting in an estimated savings of more than $2 million over 1 year
                                   If CMS’s proposed price substitution policy had been in effect during
                                   2010, reimbursement amounts for 10 of the 32 HCPCS codes would
                                   have been reduced in at least one quarter. These 10 HCPCS codes had
                                   complete AMP data and exceeded the 5-percent threshold in either two
                                   consecutive quarters or three of the four quarters in 2010. If
                                   reimbursement amounts for these 10 codes had been based on
                                   103 percent of the AMPs during the applicable quarters, Medicare
                                   expenditures would have been reduced by an estimated $2.3 million
                                   between the third quarter of 2010 and the second quarter of 2011.
                                   A list of the 10 HCPCS codes is included in Appendix E.




                                   33 ASP data from the first through fourth quarters of 2010 were used to establish
                                   reimbursement amounts for the third quarter of 2010 through the second quarter of 2011,
                                   respectively.



    O E I - 0 3 - 11 - 0 0 4 1 0   C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2010                  11
F   I     N       D I              N G    S



                 In 2010, 41 HCPCS codes with partial                             Of the 501 HCPCS codes
            AMP data exceeded the 5-percent threshold                             examined during 2010, 41 were
                                                                                  eligible for price substitution in
                              in one or more quarters
                                                                                  at least one quarter based on
                                         partial AMP data. Thirty-seven of these 41 HCPCS codes exceeded the
                                         5-percent threshold in any given quarter using only partial AMP data,
                                         whereas the remaining four codes exceeded the 5-percent threshold
                                         based on a mix of partial and complete AMP data. Appendix F presents
                                         a list of the 41 HCPCS codes, including the quarter(s) during which the
                                         codes exceeded the 5-percent threshold.
                                         For almost one-third of the HCPCS codes (13 of 41), missing and
                                         unavailable AMPs likely had little influence on the outcome of the pricing
                                         comparisons
                                         When we accounted for missing and unavailable AMPs, 13 of the
                                         41 HCPCS codes continued to exceed the threshold in at least one
                                         quarter of 2010, suggesting that the pricing comparisons for these
                                         codes were accurately capturing underlying market trends even
                                         though AMP data were not available for the full set of NDCs.
                                         Because missing and unavailable AMP data had seemingly little
                                         influence on the pricing comparison results for these 13 HCPCS
                                         codes, price substitutions may be legitimately warranted in these
                                         cases. If reimbursement amounts for the 13 codes had been based on
                                         103 percent of the AMPs during the applicable quarters, we estimate
                                         that Medicare expenditures would have been reduced by
                                         $465,000 between the third quarter of 2010 and the second quarter of
                                         2011. ASPs for 3 of the 13 HCPCS codes exceeded the 5-percent
                                         threshold in two consecutive or three of the four quarters in 2010. A
                                         list of the 13 HCPCS codes is included in Appendix F.
                                         For the remaining 28 of 41 HCPCS codes, ASPs no longer exceeded
                                         the AMPs in any quarter, indicating that these codes initially
                                         exceeded the threshold because of missing AMP data rather than a
                                         genuine pricing disparity between the ASPs and AMPs.




    O E I - 0 3 - 11 - 0 0 4 1 0         C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2010   12
F   I     N       D I              N G    S



Because of NDCs without AMP data, the number                                      If a HCPCS code had no AMPs
 of pricing comparisons performed in 2010 was                                     for any of its associated NDCs,
                                                                                  we could not evaluate that code
   reduced by at least 9 percent in each quarter
                                                                                  pursuant to sections
                                         1847A(d)(2)(B) and 1847A(d)(3) of the Act. In 2010, from 9 to 13 percent
                                         of HCPCS codes were excluded from OIG’s pricing comparisons in each
                                         quarter because AMP data were missing or unavailable for all of the
                                         associated NDCs. 34, 35 Table 1 lists the number and percentage of
                                         HCPCS codes in each quarter that were excluded from our analysis and
                                         specifies the number of codes that were based on unavailable NDCs,
                                         missing NDCs, or a combination of both.
                                         In total, 90 HCPCS codes were excluded from OIG’s pricing comparisons
                                         in one or more quarters of 2010 because AMP data were missing or
                                         unavailable for all of the NDCs that CMS used to calculate Medicare
                                         reimbursement for that quarter. For half of the 90 codes, we were never
                                         able to perform pricing comparisons in 2010 because AMPs were always
                                         missing or unavailable for all of the associated NDCs. Three-fourths of
                                         these HCPCS codes (34 of 45) would never have been subject to our
                                         pricing comparisons because they were associated exclusively with
                                         NDCs for which manufacturers were not required to report AMP data.
                                         In 2010, Medicare and its beneficiaries spent $113 million on these
                                         34 drugs.




                                         34 Relative to the total number of HCPCS codes in each quarter with Medicare
                                         reimbursement amounts based on the ASP payment methodology.
                                         35 For the purposes of this study, an AMP was considered “missing” if the manufacturer
                                         had a Medicaid rebate agreement in 2010 but did not submit a price for the quarter. An
                                         AMP was considered “unavailable” for an NDC if the manufacturer did not participate in
                                         the Medicaid drug rebate program and was therefore not required to submit AMP data.



    O E I - 0 3 - 11 - 0 0 4 1 0         C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2010                     13
F   I     N       D I              N G    S


        Table 1: HCPCS Codes That Were Excluded From 2010 Pricing Comparisons
                                                                                           Number of HCPCS Codes               Percentage of
                                                                                                  Excluded Because     HCPCS Codes Excluded
                                                                                          None of the Corresponding               Because of
         Quarter in 2010                                                                        NDCs Had AMP Data     NDCs Without AMP Data*

         First Quarter                                                                                          68                      13%
                                     Codes with unavailable AMPs only                                           35
                                         Codes with missing AMPs only                                           25
           Codes with a mix of missing and unavailable AMPs                                                      8
         Second Quarter                                                                                         54                      10%
                                     Codes with unavailable AMPs only                                           36
                                         Codes with missing AMPs only                                           14
           Codes with a mix of missing and unavailable AMPs                                                      4
         Third Quarter                                                                                          48                       9%
                                     Codes with unavailable AMPs only                                           37
                                         Codes with missing AMPs only                                            9
           Codes with a mix of missing and unavailable AMPs                                                      2
         Fourth Quarter                                                                                         61                      12%
                                     Codes with unavailable AMPs only                                           35
                                         Codes with missing AMPs only                                           21
           Codes with a mix of missing and unavailable AMPs                                                      5
        * Relative to the total number of HCPCS codes in each quarter with reimbursement amounts based on the ASP payment methodology.
        Source: OIG analysis of ASP and AMP data from the first through fourth quarters of 2010.




    O E I - 0 3 - 11 - 0 0 4 1 0         C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2010                          14
       R E C O M M E N D A T I O N S

                               Section 1847A(d)(3)(C) of the Act directs the Secretary to lower
                               reimbursement amounts for drugs with ASPs that exceed AMPs by at
                               least 5 percent. Although CMS has yet to make any changes to Part B
                               drug reimbursement as a result of these studies, the agency recently
                               published a proposed rule specifying the criteria under which it would
                               substitute prices for drugs that meet the 5-percent threshold.
                               Specifically, CMS plans to lower reimbursement amounts on a quarterly
                               basis for HCPCS codes with complete AMP data that meet the 5-percent
                               threshold in two consecutive quarters or three of the previous four
                               quarters.
                               This current overview, which summarizes data across all four quarters
                               of 2010, identified 32 drug codes that exceeded the 5-percent threshold
                               using complete AMP data. If CMS’s proposed price substitution policy
                               had been in effect during 2010, reimbursement amounts for 10 of the
                               32 HCPCS codes would have been lowered to 103 percent of the AMPs,
                               thereby saving Medicare and its beneficiaries an estimated $2.3 million.
                               An additional 41 HCPCS codes exceeded the 5-percent threshold using
                               partial AMP data. We found that missing and unavailable AMPs for
                               certain codes likely had little influence on the outcome of the pricing
                               comparisons. Therefore, price substitution may be legitimately
                               warranted for those HCPCS codes.
                               Furthermore, 10 to 13 percent of HCPCS codes were excluded from
                               OIG’s pricing comparisons in each quarter of 2010 because AMPs were
                               missing or unavailable for all of the associated NDCs. Thirty-four
                               HCPCS codes were never subject to our 2010 pricing comparisons
                               because they were associated exclusively with NDCs for which
                               manufacturers were not required to report AMP data.
                               CMS’s proposed policy is a step toward meeting statutory price
                               substitution requirements and addressing the gap between ASPs and
                               AMPs for certain Part B drugs. However, the policy may exclude other
                               drugs for which a price adjustment is legitimately warranted. To
                               ensure the appropriateness of Medicare Part B payments for a greater
                               number of drugs, we recommend that CMS:
                               Consider expanding the price substitution policy to include certain
                               HCPCS codes with partial AMP data
                               Because CMS believes that volume-weighted AMPs based on partial
                               AMP data may not adequately account for market-related drug price
                               changes and may lead to artificially low price substitutions, codes that
                               exceed the 5-percent threshold using partial AMP data would not be

O E I - 0 3 - 11 - 0 0 4 1 0   C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2010   15
R    E C            O       M      M   E    N D             A T         I     O   N   S


                                       eligible for price reduction under CMS’s proposed price substitution
                                       policy. However, for 13 HCPCS codes with partial AMP data in 2010,
                                       missing and unavailable AMPs likely had little influence on the
                                       outcome of the pricing comparisons. When we accounted for missing
                                       AMPs, these 13 HCPCS codes continued to exceed the threshold,
                                       indicating that the pricing comparisons were accurately capturing
                                       underlying market trends even though AMP data were not available for
                                       the full set of NDCs. Because the risk of substituting ASP-based
                                       reimbursement with an artificially low volume-weighted AMP is greatly
                                       diminished for these types of HCPCS codes, we suggest that CMS
                                       include in its price substitution policy HCPCS codes identified by OIG
                                       as meeting the threshold when missing AMPs have been imputed.
                                       We recognize that substituting ASP-based reimbursement amounts for
                                       these particular HCPCS codes would not have resulted in substantial
                                       savings between the third quarter of 2010 and the second quarter of
                                       2011; however, by excluding from its policy all codes with partial AMP
                                       data, CMS may inadvertently provide drug manufacturers with a
                                       disincentive to submit timely AMPs. CMS could avoid this potential
                                       disincentive by applying its substitution policy to at least certain
                                       HCPCS codes with partial AMP data.
                                       Consider seeking a legislative change to directly require all manufacturers
                                       of Part B-covered drugs to submit both ASPs and AMPs
                                       During 2010, at least 35 HCPCS codes in each quarter could not be
                                       included in OIG’s pricing comparisons because all of the associated
                                       NDCs belonged to manufacturers that did not have Medicaid rebate
                                       agreements and were therefore not required to provide AMP data to
                                       CMS. Thirty-four HCPCS codes had unavailable AMP data in all four
                                       quarters of 2010. Although Medicare and its beneficiaries spent over
                                       $100 million for these drugs during that year, payment amounts for the
                                       drugs could not be monitored through pricing comparisons with AMPs.
                                       To ensure that Part B reimbursement reflects market trends for all
                                       covered drugs and is subject to regular price monitoring, CMS could
                                       seek a legislative change requiring all manufacturers of Part B-covered
                                       drugs to submit ASPs and AMPs, regardless of whether those
                                       manufacturers have rebate agreements.




    O E I - 0 3 - 11 - 0 0 4 1 0       C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2010   16
R    E C            O       M      M   E    N D             A T         I     O   N   S




                                       AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                                       RESPONSE
                                       CMS did not state whether it concurred with our recommendation to
                                       consider substituting prices for certain HCPCS codes with partial AMP
                                       data. Rather, CMS reiterated its concerns about price substitutions
                                       based on partial AMP data and noted that it will announce a price
                                       substitution policy after considering all comments to the draft rule.
                                       CMS also stated that it could not concur with our recommendation
                                       regarding the expansion of price reporting requirements because the
                                       President’s budget for fiscal year 2012 does not include any proposals
                                       specific to this issue. To facilitate consideration for such a change, the
                                       agency suggested that OIG provide an analysis identifying the number
                                       of manufacturers and drugs that would be affected by such a proposal.
                                       In addition, CMS reiterated its uncertainty about the payoff associated
                                       with quarterly pricing comparisons, stating that the proposed price
                                       substitution policy will generate minor savings for the program.
                                       Because the Act provides discretion in determining the frequency of
                                       pricing comparisons, CMS suggested that OIG limit its efforts to a
                                       single annual report and pursue activities with higher potential rates of
                                       return.
                                       In response to CMS’s comments, OIG notes that, according to the
                                       July 2011 proposed rule, CMS intends to apply its price substitution
                                       policy on a quarterly basis. Therefore, OIG’s quarterly pricing
                                       comparisons will likely be necessary for CMS to make responsive, short-
                                       term payment adjustments that prevent Medicare and its beneficiaries
                                       from overspending. We question how timely adjustments would be
                                       possible with only annual OIG pricing comparisons.
                                       Furthermore, although the savings from any single OIG report may be
                                       small relative to total expenditures for Part B drugs, savings achieved
                                       through long-term price substitution could reduce waste and conserve
                                       taxpayer funds at a time when increased focus has been placed on rising
                                       health care costs and fiscal responsibility.
                                       To ensure that CMS can make appropriate and timely adjustments to
                                       reimbursement once the price substitution policy has been
                                       implemented, OIG will continue to issue quarterly pricing reports
                                       comparing ASPs and AMPs.
                                       For the full text of CMS’s comments, please see Appendix G.

    O E I - 0 3 - 11 - 0 0 4 1 0       C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2010   17
       A P P E N D I X                                         ~       A

                   The Equation Used by the Centers for Medicare & Medicaid Services To
                   Calculate Volume-Weighted Average Sales Prices on or After April 1, 2008
                   A volume-weighted average sales price (ASP) is calculated for the dosage amount
                   associated with the Healthcare Common Procedure Coding System (HCPCS)
                   code. In the following equation, the “number of billing units” represents the
                   number of HCPCS code doses that are contained in a national drug code (NDC).




                  Volume-Weighted ASP                                   Sum of (ASP for NDC * Number of NDCs Sold)
                   for Dosage Amount  =
                     of HCPCS Code                              Sum of (Number of NDCs Sold * Number of Billing Units in NDC)




O E I - 0 3 - 11 - 0 0 4 1 0   C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2010                         18
       A P P E N D I X                                              ~       B

                   Previous Office of Inspector General Reports Comparing Average Sales
                   Prices and Average Manufacturer Prices


                              Monitoring Medicare Part B Drug Prices: A Comparison of Average Sales
                               Prices to Average Manufacturer Prices, OEI-03-04-00430, April 2006


                              Comparison of Fourth-Quarter 2005 Average Sales Prices to Average
                               Manufacturer Prices: Impact on Medicare Reimbursement for Second
                               Quarter 2006, OEI-03-06-00370, July 2006


                              Comparison of Third-Quarter 2006 Average Sales Prices to Average
                               Manufacturer Prices: Impact on Medicare Reimbursement for First Quarter
                               2007, OEI-03-07-00140, July 2007


                              Comparison of First-Quarter 2007 Average Sales Prices to Average
                               Manufacturer Prices: Impact on Medicare Reimbursement for Third Quarter
                               2007, OEI-03-07-00530, September 2007


                              Comparison of Second-Quarter 2007 Average Sales Prices and Average
                               Manufacturer Prices: Impact on Medicare Reimbursement for Fourth
                               Quarter 2007, OEI-03-08-00010, December 2007


                              Comparison of Third-Quarter 2007 Average Sales Prices and Average
                               Manufacturer Prices: Impact on Medicare Reimbursement for First Quarter
                               2008, OEI-03-08-00130, May 2008


                              Comparison of Fourth-Quarter 2007 Average Sales Prices and Average
                               Manufacturer Prices: Impact on Medicare Reimbursement for Second
                               Quarter 2008, OEI-03-08-00340, August 2008


                              Comparison of Average Sales Prices and Average Manufacturer Prices: An
                               Overview of 2007, OEI-03-08-00450, December 2008




O E I - 0 3 - 11 - 0 0 4 1 0        C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2010   19
A    P P            E       N       D I      X           ~           B


                                  Comparison of First-Quarter 2008 Average Sales Prices and Average
                                   Manufacturer Prices: Impact on Medicare Reimbursement for Third Quarter
                                   2008, OEI-03-08-00530, December 2008


                                  Comparison of Second-Quarter 2008 Average Sales Prices and Average
                                   Manufacturer Prices: Impact on Medicare Reimbursement for Fourth
                                   Quarter 2008, OEI-03-09-00050, February 2009


                                  Comparison of Third-Quarter 2008 Average Sales Prices and Average
                                   Manufacturer Prices: Impact on Medicare Reimbursement for First Quarter
                                   2009, OEI-03-09-00150, April 2009


                                  Comparison of Fourth-Quarter 2008 Average Sales Prices and Average
                                   Manufacturer Prices: Impact on Medicare Reimbursement for Second
                                   Quarter 2009, OEI-03-09-00340, August 2009


                                  Comparison of First-Quarter 2009 Average Sales Prices and Average
                                   Manufacturer Prices: Impact on Medicare Reimbursement for Third Quarter
                                   2009, OEI-03-09-00490, August 2009


                                  Comparison of Second-Quarter 2009 Average Sales Prices and Average
                                   Manufacturer Prices: Impact on Medicare Reimbursement for Fourth
                                   Quarter 2009, OEI-03-09-00640, January 2010


                                  Comparison of Average Sales Prices and Average Manufacturer Prices: An
                                   Overview of 2008, OEI-03-09-00350, February 2010


                                  Comparison of Third-Quarter 2009 Average Sales Prices and Average
                                   Manufacturer Prices: Impact on Medicare Reimbursement for First Quarter
                                   2010, OEI-03-10-00150, April 2010


                                  Comparison of Fourth-Quarter 2009 Average Sales Prices and Average
                                   Manufacturer Prices: Impact on Medicare Reimbursement for Second
                                   Quarter 2010, OEI-03-10-00350, July 2010

    O E I - 0 3 - 11 - 0 0 4 1 0          C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2010   20
A    P P            E       N       D I      X           ~           B


                                  Comparison of First-Quarter 2010 Average Sales Prices and Average
                                   Manufacturer Prices: Impact on Medicare Reimbursement for Third Quarter
                                   2010, OEI-03-10-00440, November 2010


                                  Comparison of Second-Quarter 2010 Average Sales Prices and Average
                                   Manufacturer Prices: Impact on Medicare Reimbursement for Fourth
                                   Quarter 2010, OEI-03-11-00030, February 2011


                                  Comparison of Average Sales Prices and Average Manufacturer Prices: An
                                   Overview of 2009, OEI-03-10-00380, April 2011


                                  Comparison of Third-Quarter 2010 Average Sales Prices and Average
                                   Manufacturer Prices: Impact on Medicare Reimbursement for First Quarter
                                   2011, OEI-03-11-00160, May 2011


                                  Comparison of Fourth-Quarter 2010 Average Sales Prices and Average
                                   Manufacturer Prices: Impact on Medicare Reimbursement for Second
                                   Quarter 2011, OEI-03-11-00360, July 2011


                                  Comparison of First-Quarter 2011 Average Sales Prices and Average
                                   Manufacturer Prices: Impact on Medicare Reimbursement for Third Quarter
                                   2011, OEI-03-11-00540, August 2011




    O E I - 0 3 - 11 - 0 0 4 1 0          C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2010   21
       A P P E N D I X                                         ~       C

                   Detailed Methodology for Calculating Volume-Weighted Average
                   Manufacturer Prices for 2010


                               Before computing quarterly volume-weighted average manufacturer
                               prices (AMP) for 2010, it was necessary to identify the national drug
                               codes (NDC) that should be included in each quarter’s calculations. To
                               ensure that the broadest range of drug codes is subject to the Office of
                               Inspector General’s pricing comparisons, we examined Healthcare
                               Common Procedure Coding System (HCPCS) codes with complete AMP
                               data (i.e., HCPCS codes with AMP data for every NDC that was used to
                               calculate Medicare reimbursement), as well as HCPCS codes with
                               partial AMP data (i.e., HCPCS codes with AMP data for only some of
                               the NDCs that were used to calculate Medicare reimbursement). 36
                               Calculating Converted Average Manufacturer Prices
                               An AMP is reported for the lowest identifiable quantity of the drug
                               contained in the NDC (e.g., 1 milligram, 1 milliliter, one tablet,
                               one capsule). In contrast, an ASP is reported for the entire amount of
                               the drug contained in the NDC (e.g., for 50 milliliters, for 100 tablets).
                               To ensure that AMPs would be comparable to ASPs, it was necessary to
                               convert the AMPs for each NDC in each quarter so that they
                               represented the total amount of the drug contained in that NDC.
                               To calculate “converted AMPs” for the NDCs included in each of our
                               quarterly reports, we multiplied the AMP by the total amount of the
                               drug contained in each NDC, as identified by sources such as CMS’s
                               crosswalk file, manufacturer Web sites, Thomson Reuters’ Red Book,
                               and the Food and Drug Administration’s NDC directory.
                               For some NDCs, we could not identify the amount of the drug reflected
                               by the ASP or AMP and therefore could not calculate a converted AMP.
                               The extent to which NDCs with problematic AMP conversions affected
                               our analysis differed depending on whether the associated HCPCS code
                               had complete AMP data or partial AMP data.




                               36 We excluded NDCs without AMPs when calculating volume-weighted AMPs for HCPCS

                               codes with partial AMP data; however, the corresponding average sales prices (ASP) were
                               not excluded from the volume-weighted ASPs as determined by the Centers for Medicare &
                               Medicaid Services (CMS). Volume-weighted ASPs remained the same, regardless of the
                               availability of AMP data.



O E I - 0 3 - 11 - 0 0 4 1 0   C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2010                 22
A    P P            E      N       D I      X           ~           C


                                         HCPCS codes with complete AMP data. If a HCPCS code with complete
                                         AMP data had one or more NDCs with a problematic AMP conversion,
                                         we automatically excluded that HCPCS code from our pricing
                                         comparison for the quarter.
                                         HCPCS codes with partial AMP data. If a HCPCS code with partial AMP
                                         data had one or more NDCs with a problematic AMP conversion, we did
                                         not automatically exclude that HCPCS code from our pricing
                                         comparison. Rather, we removed only the NDCs with problematic AMP
                                         conversions. However, if all of the NDCs associated with the HCPCS
                                         code had problematic AMP conversions, we dropped the HCPCS code
                                         from that quarter’s analysis.
                                         Calculating Volume-Weighted Average Manufacturer Prices
                                         Using the remaining NDCs with successful AMP conversions, we
                                         calculated a volume-weighted AMP for each of the corresponding
                                         HCPCS codes, consistent with the revised methodology for calculating
                                         volume-weighted ASPs.




    O E I - 0 3 - 11 - 0 0 4 1 0         C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2010   23
       A P P E N D I X                                         ~       D

                   Detailed Methodology for Estimating Savings for Drug Codes That Exceeded
                   the 5-Percent Threshold in 2010
                               If the average sales price (ASP) for a Healthcare Common Procedure
                               Coding System (HCPCS) code exceeded the average manufacturer price
                               (AMP) by at least 5 percent in any quarter of 2010, we estimated the
                               savings associated with substituting the reimbursement amount for
                               that code with 103 percent of the AMP.
                               A two-quarter lag exists between the sales period for which ASPs are
                               reported and the effective date of the reimbursement amounts. As a
                               result of this lag period, estimated savings for HCPCS codes that
                               exceeded the 5-percent threshold during the first through fourth
                               quarters of 2010 were applied to the third quarter of 2010 through the
                               second quarter of 2011, respectively. We estimated savings only for the
                               time period(s) during which a HCPCS code exceeded the 5-percent
                               threshold.
                               For each of the HCPCS codes that exceeded the 5-percent threshold in a
                               given quarter of 2010, we calculated 103 percent of the volume-weighted
                               AMP and subtracted this amount from the reimbursement amount for
                               the HCPCS code, which is equal to 106 percent of the volume-weighted
                               ASP. To estimate the financial effect of lowering reimbursement for the
                               applicable quarter, we multiplied the difference by one-fourth of the
                               number of services that were allowed by Medicare for each HCPCS code
                               in 2010, as reported in the Centers for Medicare & Medicaid Services’
                               Part B Analytics and Reports (PBAR). 37




                               37 The PBAR data for 2010 were downloaded in April 2011.




O E I - 0 3 - 11 - 0 0 4 1 0   C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2010   24
       AA PP PP EE NN DD I I XX                                    ~~      EE

                   Thirty-Two Drug Codes With Complete Average Manufacturer Price Data
                   That Exceeded the 5-Percent Threshold in 2010

                                                         Quarter(s) in Which the Codes Exceeded the 5-Percent Threshold

                        Drug                                       First                Second                  Third                Fourth
                        Code                                     Quarter                Quarter               Quarter               Quarter
                        J0210*                               X                      X                     X
                        J0287                                                                                                   X
                        J0637                                                       X
                        J0834*                               X                      X                     X
                        J1120                                                                             X
                        J1327*                               X                      X
                        J1364                                                                                                   X
                        J1572                                                                                                   X
                        J1650                                                                                                   X
                        J1955                                                                                                   X
                        J2597                                X
                        J2675*                                                      X                     X
                        J2690                                                       X
                        J2765                                X
                        J2792                                X
                        J2916                                X
                        J2993*                                                      X                     X
                        J3095                                                                             X
                        J7501*                                                      X                     X
                        J9000                                                                                                   X
                        J9155                                                                                                   X
                        J9214*                               X                      X                     X                     X
                        J9218*                                                                            X                     X
                        J9263                                                                             X
                        J9268                                                                                                   X
                        J9280                                X
                        J9290                                X
                        J9291                                X
                        J9340                                X
                        J9370                                                                                                   X
                        Q0175*                                                                            X                     X
                        Q0176*                                                                            X                     X
                      * These codes would have exceeded the Centers for Medicare & Medicaid Services’ criteria for price substitution in at least
                      one quarter if the price substitution policy had been in effect during 2010.
                      Source: Office of Inspector General analysis of average sales price and average manufacturer price data from 2010.




O E I - 0 3 - 11 - 0 0 4 1 0       C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2010                                       25
       A P P E N D I X                                            ~       F

                   Forty-One Drug Codes With Partial Average Manufacturer Price Data
                   That Exceeded the 5-Percent Threshold in 2010
                                                        Quarter(s) in Which the Codes Exceeded the 5-Percent Threshold

                        Drug                                      First                Second                  Third                 Fourth
                        Code                                    Quarter                Quarter               Quarter                Quarter
                        90586                                                      X
                        J0171                                                                                                   X
                        J0207                               X
                        J0560*                              X                      X
                        J0610                               X
                        J0636*                                                                                                  X
                        J0670                               X
                        J1020*†                             X                                            X                      X
                        J1040                                                                                                   X
                        J1080                                                                                                   X
                        J1162                                                                                                   X
                        J1190                               X                                            X                      X
                        J1626                                                      X                     X                      X
                        J1940*                              X                      X
                        J2310*                                                     X
                        J2700                               X                      X                     X                      X
                        J2790                               X
                        J3130                               X
                        J3260                               X
                        J3475                               X
                        J7506*                              X                      X                     X
                        J7509*                              X                                                                   X
                        J7611                               X                      X                     X
                        J7613                               X
                        J7620                               X                                            X
                        J7644                                                                            X
                        J9031                                                      X
                        J9040                               X
                        J9045*†                                                    X                                            X
                        J9060†                              X                                            X                      X
                        J9062                               X
                                                                                                                       continued on next page




O E I - 0 3 - 11 - 0 0 4 1 0      C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2010                                          26
A    P P            E      N       D I      X           ~              F


                         Forty-One Drug Codes With Partial Average Manufacturer Price Data
                         That Exceeded the 5-Percent Threshold in 2010 (Continued)
                                                               Quarter(s) in Which the Codes Exceeded the 5-Percent Threshold

                            Drug                                         First                 Second                  Third            Fourth
                            Code                                       Quarter                 Quarter               Quarter           Quarter
                            J9178*                                 X
                            J9190*†                                                        X                     X
                            J9206                                  X
                            Q0164*                                 X                                                               X
                            Q0165*                                 X                       X                                       X
                            Q0177                                                          X
                            Q0178                                                          X
                            Q0179*                                                                                                 X
                            Q9965                                  X                       X                     X                 X
                            Q9966                                  X                       X                     X                 X
                         * For these codes, missing average manufacturer prices (AMP) likely had little influence on the outcomes of the pricing
                         comparisons.
                         † These codes exceeded the 5-percent threshold based on complete AMPs in some quarters and partial AMPs in others.
                         Source: Office of Inspector General’s analysis of average sales price data and AMP data from 2010.




    O E I - 0 3 - 11 - 0 0 4 1 0         C O M PA R I S O N   OF   ASPS    AND   AMPS: AN OVERVIEW   OF   2010                                     27
    A P PEN D                      x               G

                                          Agency Comments



                                                                                       Centers for Medicare & Medicaid Services


                                                                                       Admillistratol'
                                                                                       Washington. DC 20201




         DATE:           SEP 1 5 2011
         TO: 	          Daniel R. Levinson
                        Inspector General
                                                     /S/
         11ROM: 	       Donald M. Belwick, M.D.
                        Administrator

         SUBJECT: 	 Office ofInspeclor General (OIG) Draft Report: Comparison of Average Sales
                    Prices and Average Manufacturer Prices: An Overview of2010
                        (OEI~03~11~0041O)




         The Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to review and
         respond to the OIG Draft Report entitled, "Comparison of Average Sales Prices and Average
         Manufacturer Prices: An Overview of2010" (OEI-03-11-00410). This report is part of a series
         of average sales price (ASP) and average manufacturer price (AMP) comparisons required under
         section I 847A(d) of the Social Security Act.

         The OIG stated that the objectives for the 2010 Overview were to-(1) Identify drugs with an
         ASP that exceeded AMP by at least 5 percent in any quarter of2010; and (2) Examine the
         impact of missing and unavailable data on the OIG' s 2010 pricing comparisons. The 2010
         overview found that 32 Healthcare Common Procedure Coding System (HCPCS) codes with
         complete data (Le., AMP data was available for all national drug codes (NDC) used in the ASP
         calculation for a code) met the 5 percent threshold in at least one quarter. The orG stated that of
         these 32 codcs, 10 would have been subject to the price substitution policy that was proposcd in
         the 2012 Physician Fee Schedule (PFS) Rulc (76 FR 42828). The application of the price
         substitution policy to these 10 HCPCS codes would have reduced Medicare expenditures by an
         estimatcd $2.3 million over a four-quarter period. Another 41 HCPCS codes with partial data
         (Le., AMP data was available only for some of the NDCs used in the ASP calculation for a code)
         met the 5 perccnt threshold, and the OIG determined that missing data for 13 of these codes
         appeared to have little influence on the outcome of the comparison becausc the available data
         accurately captured underlying market trends. The OIG also noted that 90 HCPCS codes werc
         excluded from the comparison in one or more quarters due to missing or unavailable AMP data.

         While we appreciatc the 01O's continuing efforts to examine payment made under the ASP
         methodology, we remain uncertain of the payoff from quarterly reports on ASP and AMP
         comparisons. As we noted in the calendar year (CY) 2012 PFS rule (76 FR 42937) we believe
         that, based on the OIO's estimates, our proposed price substitution policy will generate minor
         savings for the program.




OEI·03·11·00410        COMPARISON OF ASPs AND AMPs: AN OVERVIEW OF 2010                                                      28
A    P P            E      N       D I      X           ~           G




    O E I - 0 3 - 11 - 0 0 4 1 0         C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2010   29
       A C K N O W L E D G M E N T S

                               This report was prepared under the direction of Robert A. Vito, Regional
                               Inspector General for Evaluation and Inspections in the Philadelphia
                               regional office, and David E. Tawes, Director of the Medicare and
                               Medicaid Prescription Drug Unit.
                               Lauren McNulty served as the team leader for this study. Central office
                               staff who contributed to this report include Tasha Trusty.




O E I - 0 3 - 11 - 0 0 4 1 0   C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2010   30
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health & Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
